<html>
<title> - BUSH ADMINISTRATION BUDGET PROPOSALS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                  BUSH ADMINISTRATION BUDGET PROPOSALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2001

                               __________

                           Serial No. 107-36

                               __________

         Printed for the use of the Committee on Ways and Means


                  U.S. GOVERNMENT PRINTING OFFICE
74-523                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J. D. HAYWORTH, Arizona              LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisories announcing the hearing................................     2

                               WITNESSES

U.S. Department of Health and Human Services, Dennis P. Williams, 
  Acting Assistant Secretary for Management and Budget...........     8

                       SUBMISSIONS FOR THE RECORD

Jeskewitz, Hon. Suzanne, State Representative, Wisconsin State 
  Assembly, statement............................................    20
Wilson, James Q., Malibu, CA, statement..........................    20

 
                  BUSH ADMINISTRATION BUDGET PROPOSALS

                              ----------                              


                        WEDNESDAY, JULY 11, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
[Chairman of the Subcommittee] presiding.
    [The advisory and revised advisory announcing the hearing 
follow:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

July 3, 2001

HR-8

    Herger Announces Hearing on Bush Administration Budget Proposals

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on initiatives contained in President 
Bush's fiscal year 2002 Budget. The hearing will take place on 
Wednesday, July 11, 2001, in room B-318 of the Rayburn House Office 
Building, beginning at 2:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. The 
invited witness will be a representative of the Office of the Assistant 
Secretary for Management and Budget, U.S. Department of Health and 
Human Services (HHS). However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    HHS's fiscal year 2002 budget contains several proposals under the 
jurisdiction of the Subcommittee on Human Resources. They include an 
expansion of the Promoting Safe and Stable Families program to provide 
additional funds and target services to the children of prisoners; a 
program to promote Responsible Fatherhood; a Compassion Capital Fund to 
provide technical assistance and support to non-profit or faith-based 
organizations seeking collaboration with social service agencies; an 
expansion of the Chafee Independent Living Program; an increase in 
Child Care Entitlement Funds; and a fund to support Maternity Group 
homes.
      
    In announcing the hearing, Chairman Herger stated: ``We look 
forward to hearing about the many initiatives set forth in the 
President's 2002 Budget and how we can work together to put these ideas 
into action.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on human resources proposals contained in 
the President's fiscal year 2002 budget proposal.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Wednesday, 
July 25, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect or MS 
Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                   * * * NOTICE--CHANGE IN TIME * * *

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

July 9, 2001

HR-8-Revised

 Change in Time for Subcommittee Hearing on Bush Administration Budget 
                               Proposals

    Congressman Wally Herger (R-CA), Chairman of the Ways and Means 
Subcommittee on Human Resources, today announced that the Subcommittee 
hearing on initiatives contained in President Bush's fiscal year 2002 
Budget scheduled for Wednesday, July 11, 2001, at 2:00 p.m., in room B-
318 of the Rayburn House Office Building, will be held instead at 10:30 
a.m.
      
    All other details for the hearing remain the same. (See 
Subcommittee Advisory No. HR-8 released on July 3, 2001.)

                                <F-dash>


    Chairman Herger. Good morning, and welcome to today's 
hearing on President Bush's fiscal year 2002 human resources 
budget proposals. The President has made a number of proposals 
that fall under the jurisdiction of this Subcommittee and which 
would be administered by the U.S. Department of Health and 
Human Services (HHS). These include programs that promote 
responsible fatherhood, to better protect children at risk of 
abuse and neglect, and to mentor children of prisoners, to name 
a few.
    Today's hearing will help us learn more about the 
President's proposals and how we can work with the 
administration to better protect children and assist young 
families on the path to self-support.
    I want to highlight one proposal, mentoring children of 
prisoners. In our country today, one and a half million 
children have a parent who is incarcerated. Studies show these 
children are more likely to be arrested or incarcerated 
themselves, to drop out of school, to run with gangs and to 
abuse drugs. To his credit, the President has proposed new 
funding for programs that link such children with positive 
adult role models, while their own parent is in jail. The 
programs also help children maintain contact with an imprisoned 
parent so that when the parent leaves prison, he or she can 
better reconnect with the child.
    Given the number of children affected and the likelihood 
this sad cycle will repeat itself if nothing is done, I hope we 
can all agree to support the President's proposal. The 
President issued a budget blueprint, sketching out this and his 
other proposals in February, which means this hearing has been 
in the planning stages for some time. For several months, we 
have been waiting for the Senate to act on a nomination of Dr. 
Wade Horn to be Assistant Secretary for the Office of Family 
Support at HHS. However, his nomination is one of a number held 
up in the Senate, and we must press on with our business.
    Fortunately, we have an excellent pinch hitter in Acting 
Assistant Secretary for Management and Budget, Dennis Williams. 
Mr. Williams has worked on these issues at HHS since 1984. We 
are pleased he can share with us his lengthy experience and 
perspective. We welcome him to the Subcommittee and look 
forward to his testimony.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    Mr. Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]

   Opening Statement of the Hon. Wally Herger, M.C., California, and 
               Chairman, Subcommittee on Human Resources

    Good afternoon and welcome to today's hearing on President Bush's 
fiscal year 2002 human resources budget proposals.
    The President has made a number of proposals that fall under the 
jurisdiction of this Subcommittee, and which would be administered by 
the Department of Health and Human Services. These include programs to 
promote responsible fatherhood, to better protect children at risk of 
abuse and neglect, and to mentor children of prisoners, to name a few. 
Today's hearing will help us learn more about the President's proposals 
and how we can work with the Administration to better protect children 
and assist young families on the path to self-support.
    I want to highlight one proposal--mentoring children of prisoners. 
In our country today, one and a half million children have a parent who 
is incarcerated. Studies show these children are more likely to be 
arrested or incarcerated themselves, to drop out of school, to run with 
gangs, and to abuse drugs. To his credit, the President has proposed 
new funding for private programs that link such children with positive 
adult role models while their own parent is in jail. The programs also 
help children maintain contact with an imprisoned parent, so that when 
the parent leaves prison, he or she can better reconnect with the 
child. Given the number of children affected and the likelihood this 
sad cycle will repeat itself if nothing is done, I hope we can all 
agree to support the President's proposal.
    The President issued a budget blueprint sketching out this and his 
other proposals in February, which means this hearing has been in the 
planning stages for some time. For several months, we have been waiting 
for the Senate to act on the nomination of Dr. Wade Horn to be 
Assistant Secretary for the Office of Family Support at HHS. However, 
his nomination is one of a number held up in the Senate, and we must 
press on with our business.
    Fortunately, we have an excellent pinch-hitter in the Acting 
Assistant Secretary for Management and Budget, Dennis Williams. Mr. 
Williams has worked on these issues at HHS since 1984. We are pleased 
he can share with us his lengthy experience and perspective. We welcome 
him to the Subcommittee and look forward to his testimony.

                                <F-dash>


    Mr. Cardin. Well, thank you, Mr. Chairman. I very much 
appreciate you calling this hearing so that we can have a 
record on the Bush administration's budget on areas that are 
within the jurisdiction of this Committee, and I want to 
welcome Dennis Williams to our Committee and we look forward to 
having the full range of cabinet-level officials before our 
Committee to look at these initiatives.
    Mr. Chairman, I might say they think there is some good 
news in the President's initiatives. I think there are some 
areas that we need to improve upon, and there are some matters 
of concern. So let me just touch upon a few very briefly.
    First on the Safe and Stable Families Program, we are very 
pleased that the Bush administration has put more resources 
into that program, and we would like to see that moved as 
quickly as we possibly can. Those funds are used to help 
children at risk, and I think there is strong support for 
moving forward in that area. Mr. Chairman, we would hope that 
we could improve upon this recommendation by adding one of the 
major causes, substance abuse, into those funding areas that 
are eligible for this program.
    Secondly, Mr. Chairman, on the Independent Living Program, 
I am very pleased that the administration has put more 
resources into that program. It is more consistent with the 
work of this Subcommittee in our efforts to help children who 
age out of foster care, and it is a welcome addition to see 
more resources put into that program.
    Third, let me mention the Responsible Fatherhood Initiative 
that the administration has put forward. That looks very 
similar to the legislation that was authored by Congresswoman 
Johnson and myself and enjoyed very strong bipartisan support 
in the House, and I would hope that we could move forward in 
that area.
    Now, Mr. Chairman, let me just mention a couple areas that 
we have concern and where we think that we need to make 
improvements. First, we were disappointed that the 
administration has not put forward a recommendation on the 
Child Support Distribution System. There has been tremendous 
interest among the child support enforcement local officials 
that we reform that system to make it easier for them to 
administer the program and to allow States to pay us through 
more child support to the families. That would help in the 
Fatherhood Initiative, and Mrs. Johnson and I again have worked 
in that area last Congress and there is strong bipartisan 
support to move that initiative.
    In the area of Temporary Assistance for Needy Families 
(TANF), we are concerned that the administration has not come 
forward with extending the supplemental grant program that 
affects a large number of States. It does not affect the State 
of Maryland that I have the honor of representing, but it is an 
area that we should move forward and we are disappointed that 
the administration has not come forward with any initiative in 
that area.
    And let me just mention another area that has not gotten 
much attention here on the Hill and maybe it has been 
withdrawn, but the administration's budget also includes the 
ability of States to offset local tax breaks to faith-based 
institutions through the use of TANF funds, and that is one 
that I would hope would not move forward in this Congress.
    And then lastly, let me mention the faith-based initiatives 
that our full Committee will be taking up later today. There 
has been a lot of discussion about the faith-based initiatives, 
but today we are going to be talking about budget initiatives, 
and one area that I think all the faith-based groups that 
currently enjoy significant resources from the Federal 
government to help in their mission would agree, and that is we 
should be putting more money, not less, into those programs in 
which faith-based institutions today are able to access Federal 
funds. Title XX is a good example of that, and yet that program 
is still under funded and the administration has not come 
forward with initiatives in that area.
    And then I would lastly mention the CCDBG Program and the 
fact that the administration has come forward with some new 
money in that area in the Child Care and Development Block 
Grant Program, but they come forward with some new initiatives 
to take some money out of that program which we think is 
counterproductive, so that we would hope that if we want to 
work out a bipartisan agreement on the faith-based initiatives, 
that we would talk about putting more money into the pot so 
that the community can address these problems more adequately 
rather than just putting more spoons in the bowl that is 
already inadequate as far as the resources that are available.
    We look forward to hearing Mr. Williams, and we look 
forward to working with you on these initiatives.
    [The opening statement of Mr. Cardin follows:]

    Opening Statement of the Hon. Benjamin L. Cardin, M.C., Maryland

    Mr. Chairman, I am pleased to be here today to consider those 
portions of the President's budget that are within the jurisdiction of 
this subcommittee. As I look at the Administration's budget, I see some 
things I like, some things that concern me, and some things that are 
missing.
    Let me start by commending President Bush for proposing to increase 
resources for the Promoting Safe and Stable Families Program, which 
provides funding to prevent child abuse, to restore families, and to 
promote adoption when appropriate. I believe this panel should act 
quickly to pass this increase in funding. We have heard considerable 
testimony that our child welfare system lacks adequate resources for 
preventive care--and this proposal takes an important first step in 
addressing that problem.
    During our deliberations on child welfare issues, I hope we also 
will consider providing additional resources to combat the leading 
cause of child abuse and neglect--namely, substance abuse by parents. 
Furthermore, I support quick enactment of the Administration's plan to 
add funding to the Independent Living Program to provide educational 
and training assistance to children aging out of the foster care 
system. This proposal dovetails nicely with legislation enacted last 
session by this subcommittee to help former foster children achieve 
self-sufficiency.
    I also am pleased that the Administration has a proposal to promote 
responsible fatherhood, but I was very disappointed that the 
President's budget failed to highlight the need to improve the 
distribution of child support.
    Last year, this Committee and the entire House overwhelmingly 
supported a bill sponsored by Mrs. Johnson to ensure more child support 
actually goes to families. Because such reforms are central to any 
effort to enhance the relationship between absent fathers and their 
children, I cannot support moving a fatherhood proposal without these 
vitally important child support improvements.
    On the issue of the Temporary Assistance for Needy Families program 
or TANF, two decisions made by the Administration give me pause about 
the role it will play in reauthorizing that important program next 
year. First, theBush budget fails to extend the TANF supplemental 
grants, which help many of our poorer States and which expire this 
year. And second, the budget would allow States to spend Federal TANF 
funds to offset the cost of tax breaks for charitable donations.
    Fortunately, the Congressional Budget Resolution includes an 
extension of the TANF supplemental grants, and the Administration's 
proposal on using TANF funds to offset tax breaks has not been included 
in any of the faith-based proposals now being considered by Congress.
    Finally, let me make a general point about resources. The President 
has on many occasions touted his faith-based initiative as a way to 
help more charities serve needy families. But he fails to acknowledge 
that many religious charities already receive government aid to help 
the poor.
    One of the most effective ways to help these faith-based providers 
do even more is to increase funding for public programs which provide 
them with resources.
    For example, religious charities have been outspoken in their 
support for restoring funding to the Social Services Block Grant (Title 
XX), which has been cut from $2.8 billion a year in 1995 to $1.7 
billion today. And yet President Bush's budget continues to under-fund 
this program.
    The Child Care and Development Block Grant is another example of a 
program that faith-based organizations depend on to serve needy 
families. The President's budget would provide $400 million in 
discretionary funding for a new after-school program within this block 
grant, but half of that money is taken out of the current activities 
funded by the CCDBG. We must do better if we are serious about helping 
``the armies of compassion'' ensure that ``no child is left behind.''
    Mr. Chairman, I look forward to hearing Mr. Williams' presentation 
of the Administration's budget, while recognizing that as a career 
employee in the position of Acting Assistant Secretary for Management 
and Budget at HHS, he may be constrained in his ability to articulate 
the Administration's policies beyond what is already stated in the 
budget.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Cardin. Before we move on 
to our testimony this morning, I want to remind our witness to 
limit his oral statements to 5 minutes. However, without 
objection, all the written testimony will be made a part of the 
permanent record. Now we will turn to our witness, Mr. Dennis 
Williams, Acting Assistant Secretary for Management and Budget 
at the U.S. Department of Health and Human Services. Mr. 
Williams.

STATEMENT OF DENNIS P. WILLIAMS, ACTING ASSISTANT SECRETARY FOR 
  MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Williams. Thank you, Mr. Chairman, Members of the 
Committee. I am pleased to appear before you today to discuss 
the President's fiscal year 2002 budget request for the 
administration for Children and Families. ACF is the 
Department's leading agency responsible for serving our 
Nation's most vulnerable populations, including preschool age 
children, adolescents, and families and children in crisis. The 
fiscal year 2002 budget for the administration for Children and 
Families is $44.4 billion. The request represents an increase 
of 2.9 percent above the fiscal year 2001 enacted level and is 
comprised of $31.8 billion in funding for entitlement programs, 
including the Temporary Assistance for Needy Families Program, 
Child Support Enforcement, Foster Care and Adoption Assistance 
and the Child Care Entitlement, and $12.6 billion for funding 
discretionary programs, such as Head Start.
    The agency's fiscal year 2002 budget reflects the 
administration's commitment to improving the lives of our 
Nation's most vulnerable children and families by maintaining 
critical investments and targeting new initiatives to help them 
thrive and prosper. The budget also increases support for 
charitable organizations that can make such a difference in 
people's lives. I would like to spend my time today discussing 
these new initiatives.
    First, ACF's budget seeks to strengthen families by 
recognizing the critical role that fathers play in the lives of 
their families. A new $64 million program is proposed to 
provide competitive grants to religious and community 
organizations to help parents support their children 
financially and improve parenting skills and to promote 
marriage. We commend the Subcommittee for its leadership on 
this issue and look forward to working with you in this area of 
mutual commitment.
    In addition, ACF's budget seeks funding under the Social 
Security Act's section 1110 demonstration authority for a 
Compassion Capital Fund. The fund would provide startup capital 
and operating funds totaling $89 million in 2002 to support 
qualified charitable organizations that wish to expand or 
emulate model social programs and to promote research on best 
practices among charitable organizations.
    Further, to encourage States to create State tax credits 
for contributions to designated charities, this budget proposes 
to allow States to use Federal Temporary Assistance for Needy 
Families funds to offset revenue losses from such 
contributions.
    In the area of child care, the fiscal year 2002 request 
proposes to increase discretionary funds available for the 
Child Care and Development Block Grant by $200 million for a 
total fiscal year 2002 level of $2.2 billion.
    The President's budget includes a $400 million set-aside to 
provide parents with certificates to obtain after-school child 
care with a high quality education focus for eligible children 
up to 19 years of age. This would help low-income working 
parents pay for the cost of care to children especially 
vulnerable to crime and at-risk behavior when left unsupervised 
after school.
    Additionally, the 2002 budget includes a $150 million 
increase in pre-appropriated entitlement funds. In total, this 
translates to a $350 million increase in child care funding, 
which will provide after-school care for up to 500,000 
additional children.
    In addition, ACF's budget seeks to help our most vulnerable 
and at-risk children live safe and productive lives in 
conjunction with reauthorization of the Promoting Safe and 
Stable Families Program, which is scheduled to expire on 
September 30th, 2001.
    We are proposing a $200 million increase for the Promoting 
Safe and Stable Families Program, which supports State and 
tribal child welfare agencies in carrying out family 
preservation, family support, family reunification and adoption 
promotion and assistance services.
    Within this framework, we are also proposing to create a 
new discretionary initiative that will provide $67 million 
within the Promoting Safe and Stable Families Program to assist 
children of prisoners. On an average day, as Mr. Herger has 
pointed out, America is home to 1.5 million children of 
prisoners who suffer disproportionate rates of many severe 
social problems, including substance abuse, gang involvement, 
early childbearing and delinquency. This additional new funding 
would go to States to provide a range of activities, including 
family rebuilding programs that serve low-income children of 
prisoners and probationers.
    Finally, we are also seeking a $60 million increase in 
funding for the Independent Living Program within the Foster 
Care and Adoption Assistance Entitlement. This funding is 
intended to provide vouchers worth up to $5,000 for education 
and training to help young people who age out of foster care 
develop skills to lead independent and productive lives. 
Currently 16,000 youth age out of the foster care system 
annually and often do not have the resources to pay for higher 
education and vocational training that can be critical to 
increasing their opportunity to secure workand become 
contributing members of adult society.
    As outlined in my written testimony, ACF's fiscal year 2002 
budget includes several additional funding priorities, 
including $33 million for maternity group homes to provide safe 
and nurturing environments for teenage mothers and their 
children who cannot live with their own families because of 
abuse, neglect or other extenuating circumstances.
    Along with the priorities I have just highlighted, the 
fiscal year 2002 budget for ACF supports crucial areas of need 
for our Nation's children and families. We look forward to 
working with you to ensure these needs are addressed. Thank 
you, Mr. Chairman. I will be happy to answer any questions you 
or the Committee may have at this time.
    [The prepared statement of Mr. Williams follows:]

    Statement of Dennis P. Williams, Acting Assistant Secretary for 
  Management and Budget, U.S. Department of Health and Human Services

    Mr. Chairman and members of the subcommittee, I am pleased to 
appear before you today to discuss the President's FY 2002 budget 
request for the Administration for Children and Families (ACF). I am 
Dennis Williams, the Acting Assistant Secretary for Management and 
Budget in the Department of Health and Human Services. The 
Administration for Children and Families is the Department's lead 
agency responsible for serving our Nation's most vulnerable 
populations, including preschool age children, adolescents, and 
families and children in crisis. The agency's FY 2002 budget reflects 
the Administration's commitment to improving the lives of these 
children and families by maintaining critical investments and targeting 
new initiatives to help them thrive and prosper as well as increasing 
support for the charitable organizations that can make such a 
difference in people's lives.
    I would like to begin my testimony today by providing an overview 
of ACF's overall FY 2002 budget and then focus on areas that I know are 
of particular interest to this subcommittee.

                                Overview

    The FY 2002 budget for the Administration for Children and Families 
is $44.4 billion. This request represents an increase of 2.9 percent 
above the FY 2001 enacted level and reflects the President's commitment 
to a balanced fiscal framework while at the same time increasing 
support for America's children and families.
    Two thirds or $31.8 billion of the ACF budget request is for 
entitlement programs including the Temporary Assistance for Needy 
Families (TANF) program, Child Support Enforcement, Foster Care and 
Adoption Assistance, and the Child Care Entitlement. The remaining 
$12.6 billion of this request represents the discretionary portion of 
ACF's budget and funds programs such as the Low Income Home Energy 
Assistance Program (LIHEAP), the Child Care and Development Block 
Grant, Head Start, Community Services Block Grant and Refugee and 
Entrant Assistance.
    I would like to turn now to a few key programmatic initiatives in 
ACF's FY 2002 request that we look forward to working with you on such 
as responsible fatherhood, support for charitable organizations, child 
care, Safe and Stable Families and independent living.

                    Promoting Responsible Fatherhood

    ACF's budget seeks to strengthen families by recognizing the 
critical role that fathers play in the lives of their families. A new 
$64 million program would be authorized to strengthen the role of 
fathers in families and marriage. This initiative shares many of the 
same goals as the legislation this subcommittee has supported over the 
last several years. The President's proposal would provide competitive 
grants to faith-based and community organizations to help low-income 
non-custodial parents (mainly fathers) support their children 
financially and improve parenting skills and to promote marriage. We 
commend the subcommittee for your leadership in focusing attention on 
responsible fatherhood and look forward to working with you in this 
area of mutual commitment.

                  Support for Charitable Organizations

    In addition to reaching out to the expertise of faith--and 
community-based organizations in our child care, fatherhood and 
mentoring initiatives, ACF's budget seeks funding under the Social 
Security Act's section 1110 demonstration authority for a compassion 
capital fund. The fund would provide start-up capital and operating 
funds totaling $89 million in 2002 to support qualified charitable 
organizations that wish to expand or emulate model social programs. 
This funding would build on the efforts of charitable organizations by 
supporting the creation of public/private partnerships in addressing 
the needs of low-income families. In addition, these funds would be 
used to promote research on best practices among charitable 
organizations.
    Further, to encourage States to create State tax credits for 
contributions to designated charities, this budget proposes to allow 
States to use Federal Temporary Assistance for Needy Families funds to 
offset revenue losses, from such contributions.

                               Child Care

    The FY 2002 request proposes to increase the discretionary funds 
available for the Child Care and Development Block Grant by $200 
million for a total FY 2002 level of $2.2 billion. The President's 
budget includes a $400 million set-aside to provide parents with 
certificates to obtain after-school child care with a high quality 
education focus for eligible children up to 19 years of age. This would 
help low-income working parents pay for the cost of care to children 
especially vulnerable to crime and at-risk behavior when left 
unsupervised after school. Additionally, the 2002 budget includes a 
$150 million increase in pre-appropriated entitlement funds which are 
subject to the rules of the Child Care and Development Block Grant. In 
total, this translates to a $350 million increase in child care funding 
and will provide after school care investment for up to 500,000 
additional children.

                   Promoting Safe and Stable Families

    In addition, ACF's budget takes steps to help our most vulnerable 
and at-risk children live safe and productive lives in conjunction with 
reauthorization of the Promoting Safe and Stable Families program, 
scheduled to expire on September 30, 2001. First, we are proposing a 
$200 million increase for the Promoting Safe and Stable Families 
program, which supports State and Tribal child welfare agencies in 
carrying out family preservation, family support, family reunification, 
and adoption promotion and assistance services. These additional funds 
will be used to help serve the best interests of children by either 
keeping them with their biological families when it is safe and 
appropriate, or by expediting adoptive placement when it is not. 
Second, we are proposing to create a new discretionary initiative that 
will provide $67 million within the Promoting Safe and Stable Families 
program to assist children of prisoners. America is home to 1.5 million 
children of prisoners on an average day who suffer disproportionate 
rates of many severe social problems including substance abuse, gang 
involvement, early child-bearing, and delinquency. This additional new 
funding would go to States to provide a range of activities, including 
family rebuilding programs that serve low-income children of prisoners 
and probationers.

                           Independent Living

    We are also seeking a $60 million increase in funding for the 
Independent Living Program within the Foster Care and Adoption 
Assistance entitlement. This funding is intended to provide vouchers 
worth up to $5,000 for education and training to help young people who 
age out of foster care to develop skills to lead independent and 
productive lives. Currently, 16,000 youth age out of the foster care 
system annually and often do not have the resources to pay for higher 
education and vocational training that can be critical to increasing 
their opportunity to secure work and become contributing members of 
adult society.

                        Other Budget Priorities

    Before concluding, I would like to take this opportunity to mention 
several additional priorities in ACF's budget which fall outside this 
committee's jurisdiction. First, the budget includes $33 million for 
community-based, adult supervised group homes for teenage mothers and 
their children under the Runaway and Homeless Youth Program. The homes 
would provide safe, stable, nurturing environments for teenage mothers 
and their children who cannot live with their own families because of 
abuse, neglect, or other extenuating circumstances.
    In addition, the FY 2002 budget request for Head Start would 
increase by $125 million to $6.3 billion. This will support all Head 
Start programs in maintaining the current level of services while 
efforts are undertaken to improve the program's focus on child and 
family literacy in order to better prepare children for school.
    Finally, the FY 2002 request for Federal Administration is $175 
million, an increase of $11 million or 4.9 percent over the FY 2001 
enacted level. This level is expected to fund 1,532 full-time 
equivalent staff (FTE) and provide 15 new FTE needed to support the 
Department's Faith-Based Center established in accordance with the 
President's recent Executive Order. Also, ACF envisions committing an 
additional $2 million as needed to meet the intensive staffing and 
travel requirements generated by the child welfare monitoring reviews.

                               Conclusion

    In conclusion, the President's FY 2002 budget for ACF identifies 
crucial areas of need for our Nation's children and families. We look 
forward to working with you to ensure these needs are addressed.
    Thank you, Mr. Chairman. I will be happy to answer any questions 
you and the Committee may have at this time.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Williams, and now we will 
turn to questions for Mr. Williams, and I would like to remind 
the members that they each have 5 minutes for witness 
questioning. I recognize the gentlelady from Connecticut, Mrs. 
Johnson, to inquire.
    Mrs. Johnson. I thank the chairman and I thank Mr. Williams 
for appearing before our Subcommittee today. I want to make 
just a couple of comments that I hope you will kind of take 
back as my first reactions to where we are and then I will 
proceed with the question.
    But first of all, I am very pleased to see this new 
administration focusing on fatherhood. I would call your 
attention to the structure of the bill that Mr. Cardin and I 
wrote that involves preferences. There are some problems that 
we don't know how to solve, but we need to stimulate and 
incentivize the States to solve them. One of the biggest is how 
do we help young men who are terribly in debt from nonsupport 
payments, from not having paid child support, out from under 
that debt? In Hartford, there are at least 400 men who will 
never, ever be able to work in the public economy. They will 
never be part of Social Security. They will never be a part of 
Medicare, and they will never be a stable part of their 
families, not because they don't want to and not because they 
aren't actually working under the table, but because they have 
such large arrearages that they could never, ever pay off 
$10,000, $20,000, $30,000.
    So we need States to look at this creatively. We do this in 
many other areas. We let teachers pay off debt by serving in 
low income areas. I mean, there are lots of things we can do, 
but we have done none of it and so we don't tell States how to 
deal with arrearages. But I can tell you many of the men that 
we most want to reach cannot be reached until we also work with 
them financially. We didn't. That is why they have these big 
debts.
    Now that we have a system that identifies paternity at 
birth, gets them in the system early, we should avoid these 
problems in the future, but we will never solve the problems of 
our young families if we aren't more honest about debt and its 
influence on our lives.
    So I just point that out to you and any work the Department 
is doing on those kinds of creative things or knows the States 
are doing I think we would be real interested in.
    Then secondly, I hope you will look more carefully at and I 
hope we will have a chance to look at the Safe and Stable 
Families Program from the point of view of the waivers that 
have been given to States to better integrate their foster care 
and adoption money, because that control over those dollars so 
that they aren't driven by placement decisions but rather by 
child need decisions is a very important movement, and now 
there are a lot of States that have gotten waivers and more 
flexible use of that money, and we need to look at that because 
as we reauthorize these things, we really have to be more 
progressive on future looking.
    On the maternity group home thing, I am really concerned 
about that, because we have got to do a far better job among 
pregnancy prevention among teenagers, and I have a program in 
my district that gets not one dollar of abstinence money though 
it has a 100 percent success rate now over a number of years, 
not one pregnancy, male or female. This isn't just about girls 
getting pregnant. This is about young boys impregnating girls. 
But because they teach about contraceptives, even though they 
teach heavily about abstinence and it is abstinence that is 
really serving them, they don't get a dollar of Federal money. 
So I think we need to look more realistically.
    There was a very big article about this recently that 
quotes kids just about the security. They need to know that 
they have got that backup and if they make a mistake and--we 
don't have the time to go into it here, but we have got to be 
more honest with our kids, because we can help them prevent 
pregnancy and go on and get the education they need to be a 
productive member of society. And I would be very reluctant, 
frankly, to put new money into maternity homes when we are 
doing so little to prevent pregnancy.
    I do also join my other colleagues in their interest in 
substance abuse treatment dollars, and that leads me to the one 
question of this series of things that we have laid out here. I 
do wonder how much we know about women in prison and parents in 
prison, parents of children on TANF in prison, and what their 
particular needs are, what percentage of parents are there 
because of substance abuse, because of so on and so forth, and 
what are we doing and how will some of the programs that you 
are proposing help in that.
    Before I relinquish my time, let me also just say that I am 
very pleased with the increase in the child care dollars, but 
in my experience we have two few vouchers to support the number 
of people coming off welfare, so it is a problem to take 
voucher dollars, the after-school dollars, as important as 
after-school care is. So I just put those concerns out there, 
but I am very interested in the families in prison and 
particularly those in TANF.
    Mr. Williams. Let me add more fully for the record on some 
of the statistics and characteristics of women and children 
that I think could give you a fuller response, but we can say 
that women in prison and the children of women in prison are 
particularly vulnerable in society. These children typically 
come from households where the mother was asole provider, 
making placements in foster care more likely when the mother is in 
prison than if she is not. So this is an area where we have particular 
interest and concern.
    There are no government programs now that really address 
this problem. There are some private programs, such as Big 
Brother, Big Sister, but this is an area where the government 
and a government program can, we think, have particularly high 
payoff. In a more general way, the limited data indicates that 
placements in foster care as a result of a parent's 
incarceration increased from 2.5 percent of the placements in 
1997 to 5.9 percent in 1999, and that represents roughly 30,000 
children. So this is a matter of some size and dimension.
    I might just comment briefly, if you have a moment, on some 
of your other comments. Your comments with respect to 
strengthening fatherhood are timely. The administration is now 
giving high priority to the drafting of that legislation, and 
we will take your concerns and your interests into account. 
When we have the legislation we certainly look forward to 
working with the Committee to try to produce a bill which 
addresses this problem.
    [The following was subsequently received:]

    In 1999 State and Federal prisons held an estimated 721,500 parents 
of minor children. A majority of State (55%) and Federal (63%) 
prisoners report having a child under the age of 18. Forty-six percent 
of the parents reported living with their children prior to admission. 
As a result, there were an estimated 336,300 U.S. households with minor 
children affected by the imprisonment of a parent.
    While a majority of both fathers (57%) and mothers (54%) in State 
prison reported never having a personnel visit with their children 
since admission, 40% of fathers and 60% of mothers in State prison 
reported weekly contact with their children.
    Children of prisoners are less likely than their peers to succeed 
in school and more likely to succumb to substance abuse, gangs, early 
childbearing and delinquency. Children of incarcerated mothers are 
particularly vulnerable; as these children typically come from 
households where the mother was the sole provider, making placement in 
foster care more likely when the mother is in prison. The data 
available indicates that placement in foster care as a result of a 
parent's incarceration increased from 2.5% of the placements in 1997 to 
5.9% (roughly 30,000 children) in 1999.

                                <F-dash>


    Chairman Herger. Thank you. The time has expired of the 
gentlelady from Connecticut. Now I recognize our ranking 
member, Mr. Cardin, to inquire.
    Mr. Cardin. Thank you, Mr. Chairman. Mr. Williams, HHS, of 
course, is the agency that is primarily responsible for our 
people who are most at risk. As I look at the budget priorities 
of the Bush administration, clearly they have come forward now 
with an initiative for defense. They have had their tax 
initiative. When I look at the increase that you refer to in 
your statement of 2.9 percent in this area, the Consumer Price 
Index rose 3.6 percent for the 12 months ending this May, and 
with two more million people in our country this year, it seems 
to me we are not keeping up with inflation. We are not keeping 
up with the needs in this area for our most vulnerable, so I 
appreciate the fact that you have gone over some of the new 
initiatives. I wonder how you square the overall resources that 
are going to be available with the needs that are out there.
    Mr. Williams. Mr. Cardin, thank you. The President has 
produced a budget which has very much focused on trying to 
restrain the growth in spending, not eliminate it, but to 
restrain it to a level of spending over the long term which is 
sustainable. Within that objective, however, the President and 
the Secretary have focused their attention on some clear 
priorities.
    Mr. Cardin. I just interrupt for one moment to say that 2.9 
in this area is significantly lower than the overall number of 
the other areas in the budget. So it appears to me again, as an 
advocate for human resources, which is what this Subcommittee 
is concerned about, and HHS, which is your agency's mission, it 
seems like this is the area that got shortchanged.
    Mr. Williams. We have focused our attention on some clear 
priorities. Some of the new programs I have mentioned are new 
initiatives. They will amount to $456 million in new spending 
in 2002. Some of the areas that Mrs. Johnson mentioned are 
areas that we want to address, child care and development. For 
child care, we have an increase of $200 million in the 
discretionary program. We have a $150 million increase in the 
mandatory program. On the discretionary side of this budget, 
that is a 10-percent increase. So we have in selected areas, 
admittedly selected areas, significant increases in resources 
that are of priority to the President and the Secretary.
    Mr. Cardin. I appreciate that response. I don't think it 
fully answers the question. Let me go on to one area, the 
Fatherhood Initiative is one in which there has been strong 
bipartisan support, has passed this House several times. Part 
of what we do is allow--one of our initiatives with child 
support is allow pass-through child support to the families, 
which we think also helps bring the father into the family. 
Secretary Thompson, when he was Governor of Wisconsin, 
initiated that policy for his own State. The administration has 
come out with tax relief, and that has been enacted into law, 
and yet these families are paying effectively a marginal tax 
rate of 100 percent. Is the administration going to offer some 
initiative to help States who want to pass through child 
supports to the families to bring the families together?
    Mr. Williams. It is my understanding, at least in the 
context of the strengthening fatherhood proposal, we have not 
made specific proposals there, although that legislation is 
still being drafted, so it is something we can consider, as 
Mrs. Johnson asked us to do. The budget does not envision any 
particular change in child support.
    Mr. Cardin. I would just ask you to take back that message. 
Again, we have bipartisan support here, and it helps the 
vulnerable families who have very high marginal rates, 100 
percent.
    Do you know how much resources currently go to faith-based, 
religious-affiliated organizations under the current Federal 
programs? Do you have that number?
    Mr. Williams. I don't think so, but we could try to provide 
that for the record.
    [The following was subsequently received:]

    On January 29th the President issued two Executive Orders (E.O.s) 
creating the White House Office of Faith Based and Community 
Initiatives and establishing Executive Department Centers for Faith-
Based and Community Initiatives within the Departments of Education, 
Labor, Justice, Health and Human Services and Housing and Urban 
Development. One of the initial tasks of the Executive Department 
Centers is to conduct department-wide audits to identify all existing 
barriers to the participation of faith-based and community 
organizations in the delivery of social services by the department.
    According to information collected for a section of the report 
about the current level of participation by faith-based and community-
based organizations in Federal programs, overall figures were difficult 
to determine due to lack of available information. Grantees do not 
necessarily report their affiliation in a manner that allows the 
departments to identify whether or not they are faith-based. In 
addition, many programs provide funding to States by formula 
allocation. For these programs, information on the recipients of funds 
at a sub-state level is not currently collected and would not be 
included as part of a grant record.
    To illustrate, while the Department of Health and Human Services 
was able to provide information on funding for faith-based 
organizations for a number of smaller programs, information on larger 
block grant programs such as Temporary Assistance for Needy Families 
(TANF) or Community Services Block Grant, which provide funds under the 
auspices of charitable choice provisions, was not available. It is our 
understanding that the Departments of Education, Labor, Justice, and 
Housing and Urban Development are experiencing similar limitations in 
their ability to accurately represent resources provided to faith-based 
organizations.

                                <F-dash>


    Mr. Cardin. Would you? I appreciate it if you would. We 
know that the Catholic Charities has estimated almost two-
thirds of their operating income comes from Federal, State and 
local governments. The Salvation Army says that they receive 
about $300 million a year in government funding. I think it 
would be important for us to have that number. If you could 
make it available to the Committee, I would appreciate that.
    The one area that really concerns me, and you mention it in 
your oral statement--I thought maybe you had abandoned it. I 
guess that was just wishful thinking--and that is using TANF 
funds to reimburse the States for the charitable breaks they 
give them on the tax returns. You know, this is not money that 
is going necessarily to low-income programs. Charitable 
deductions could be anything from our church, to our hospital, 
to a university, and you really think we should be taking money 
away from low-income programs to fund this initiative? It is 
totally inconsistent with everything we have said on TANF 
funding.
    Mr. Williams. The proposal envisions that the ability to 
use TANF money to help to finance a tax credit would be for 
those programs which address poverty and other social problems 
in the State. So this is not meant to be----
    Mr. Cardin. I thought it was for tax cuts.
    Mr. Williams. No. This is not meant to be an open-ended tax 
credit but, rather, for charitable contributions for those 
areas that would address the issues you are talking about.
    Mr. Cardin. I am sorry I don't have Mr. Portman on this 
panel, because I think Mr. Portman would agree with me, that if 
you are going to limit it to the type of 501(c)(3)s that would 
qualify for this tax relief, you are just creating additional 
complexity and also an impossible burden on enforcement for a 
State to develop a separate tax break for certain types of 
charitable organizations.
    Mr. Williams. But we do that with the objective of 
leveraging a lot more money for some of these programs. If we 
can provide some tax credits to individuals who are prepared to 
put private money--more private money--into these programs than 
overall, we should. The objective is to increase the amount of 
resources available for these programs.
    Mr. Cardin. But States can do that already with their TANF 
funds.
    Mr. Williams. Yes, but----
    Mr. Cardin. Why develop another complexity into the system?
    Chairman Herger. I thank the gentleman from Maryland. We 
have been notified that there are expected to be two votes on 
the floor. We will go and vote and return as soon as possible. 
In the meantime, the hearing stands in recess.
    [Recess.]
    Chairman Herger. This Committee is reconvened, and, again, 
good to see you, Mr. Williams. On the fatherhood legislation 
proposed by the administration, this Committee approved 
fatherhood legislation last year that also passed the House by 
a wide margin. Nancy Johnson and Ben Cardin have reintroduced 
that legislation this year, and we recently held a hearing that 
included discussion of their bill, H.R. 1471. Could you please 
tell us how the President's proposals on fatherhood differ, if 
at all, from the approach in the Johnson-Cardin bill?
    Mr. Williams. Thank you, Mr. Chairman. I can't answer that 
question with absolute definition, because the administration's 
bill is still being drafted, and we hope to have it up here 
soon. It is my understanding, though, that the primary and 
basic purposes of the fatherhood title in the Cardin-Johnson 
bill and the administration's bill are likely to be in many 
areas of agreement, and we look forward to working with the 
Committee when we actually have the final draft.
    Chairman Herger. I thank you, and then Mr. Cardin mentioned 
a concern about simply adding more spoons to the same sized 
bowl when it comes to the President's faith-based initiative. 
Is it true that the President's budget does call for more 
funds, I believe some $89 million, in this budget in the area 
of a Compassion Capital Fund; and, therefore, it is growing the 
bowl?
    Mr. Williams. Yes.
    Chairman Herger. And would you like to comment?
    Mr. Williams. Yes, sir. The budget does propose a 
Compassion Capital Fund, which is aimed at providing startup 
capital for faith-based institutions to provide services in 
their communities. It is $89 million that we would be proposing 
in new spending in fiscal year 2002.
    Chairman Herger. Thank you. And with that, I yield time to 
the gentleman from Texas, Mr. Doggett, to inquire.
    Mr. Doggett. Thank you so much, Mr. Chairman. Mr. Williams, 
as you are aware, 17 States received supplemental grants to 
TANF, where they have traditionally received low TANF grants 
because they have many people in poverty or expanding 
populations. Why is President Bush opposed to this supplemental 
TANF program?
    Mr. Williams. The President has not said that he is opposed 
to the supplemental program.
    Mr. Doggett. Well, he excluded it from his budget, didn't 
he?
    Mr. Williams. The TANF legislation is up for 
reauthorization in----
    Mr. Doggett. Well, it is not in the President's budget.
    Mr. Williams. And----
    Mr. Doggett. Is that correct?
    Mr. Williams. It was the President's and the Secretary's 
intention to deal with this and other issues in the TANF 
legislation as they came up for reauthorization.
    Mr. Doggett. It is omitted from the President's budget, 
isn't it?
    Mr. Williams. Yes, because that particular aspect of the 
TANF legislation expires this coming year rather than in 2002, 
but we expect the President will be addressing the full TANF 
reauthorization in the next year's budget.
    Mr. Doggett. Well, do you expect that he is going to 
support the supplemental TANF program even though he excluded 
it from his budget?
    Mr. Williams. I can't answer that with definition. The 
President's budget is being worked on now, but I would expect 
that this would be addressed in that budget.
    Mr. Doggett. Why is the President opposed to the Early 
Learning Opportunities Fund to fund improvements in child care 
quality and seek out innovative programs that might be 
replicated across the country?
    Mr. Williams. Mr. Doggett, I would say that the President 
and the Secretary are not opposed to the fund. The President 
did make some choices, however, and chose to spend money in the 
Department of Education for an early reading program, and the 
President's budget has an increase of $75 million for that 
program in the Department of Education and----
    Mr. Doggett. Well, my question is related to the Early 
Learning Opportunities Fund to upgrade the quality of child 
care. These other programs may have merit, too, but the 
President thought again so little of this initiative to improve 
the quality of child care, not just for poor children but for 
all children, that he excluded it from his budget, didn't he?
    Mr. Williams. That particular program is not funded, but 
there is money and increased resources for programs with 
similar purposes.
    Mr. Doggett. So in terms of putting dollars into that 
program, the President is opposed to the Early Learning 
Opportunities Fund?
    Mr. Williams. He is not opposed to the fund. He just 
doesn't want to provide more resources for similar programs.
    Mr. Doggett. Let me ask you, with reference to Mr. Cardin's 
inquiry on the Child Care and Development Block Grant, as I 
understand, you increase it by $200 million and then take $400 
million out of it for a new After School Program?
    Mr. Williams. If you look at child care broadly, which 
includes both----
    Mr. Doggett. I want to look specifically at the Child Care 
and Development Block Grant----
    Mr. Williams. In the Child Care and Development Block 
Grant, there is an increase of $200 million in total.
    Mr. Doggett. And then you take $400 million out of it?
    Mr. Williams. We are not taking $400 million out of it.
    Mr. Doggett. Well, you are putting it into a program that--
--
    Mr. Williams. We are earmarking $400 million for an After 
School Program.
    Mr. Doggett. Right. So it no longer will be available, sir, 
for the purposes of the Child Care Development Block Grant 
under current law, will it?
    Mr. Williams. If you take child care under the Child Care 
and Development Block Grant, plus the mandatory program where 
there is an increase of $150 million, we will be providing the 
same assistance to child care in 2002 as we do in 2001. In 
addition, we will serve 500,000 additional children in the 
After School Program.
    Mr. Doggett. Well, I am delighted you will under your 
proposal, but you have cut the Child Care and Development and 
Block Grant Program for purposes of what we use it for now, 
which in my State can't cover the number of people that want to 
receive support on child care who are trying to get off welfare 
and into the workforce. You cut it by $200 million dollars, 
don't you?
    Mr. Williams. We have compensated for that by increasing 
the mandatory program by $150 million.
    Mr. Doggett. Thank you very much.
    Mr. Cardin. Would you yield for one moment? Following Mr. 
Doggett's point on the supplemental grants, I don't really 
follow your answer. If you don't put it in this year's budget, 
that means that those States that have received the 
supplemental grants in the past will go a year without TANF 
funds, isn't that correct?
    Mr. Williams. Yes, if the Congress did not address the 
issue, that is correct.
    Mr. Cardin. So----
    Mr. Williams. But I was asked whether the President 
supported the supplemental program, and the answer is we do, 
but the President wants to deal with all of these issues in the 
TANF reauthorization.
    Mr. Cardin. The answer to the question, if we want to do 
it, Congress has to act this year, this year, and the budget 
has to include it this year, and the administration is not 
recommending action this year. Therefore, Mr. Williams, I would 
submit that by doing that you are adversely affecting the 17 
States that depend upon that. Maryland is not one of those 
States. This is Texas and some of the other States that are 
involved. But I don't think you can hide behind the banner that 
you will take it up next year. Next year we will have a TANF 
reauthorization bill, but we should at least have a 1-year 
extension if you want to defer it to next year and summit a 1-
year extension of the supplemental grants so that these States 
aren't adversely affected.
    Mr. Doggett. If the gentleman would yield back, just like 
the Early Opportunity Learning Fund to upgrade the quality of 
child care, they are for it. They just don't want to pay 
anything for it.
    Chairman Herger. The time is expired. It is my 
understanding--Mr. Williams, if you would comment--that the 
budget resolution approved by the House and the Senate provides 
for continued funding for the Supplemental Grants Program, 
about which we were speaking?
    Mr. Williams. Yes, I believe that is right.
    Mr. Cardin. Will the gentleman yield?
    Chairman Herger. Yes.
    Mr. Cardin. You are absolutely correct, but I am trying to 
see whether the administration is supporting us on that. 
Congress is probably going to act, but the President can veto. 
I want to know whether the administration is going to support 
the supplemental grants and, if you are, where the money is 
coming from. That is, I guess, our question.
    Mr. Williams. I can't speak for the President specifically, 
but I think the President has endorsed the budget resolution 
and my guess is that he will support that particular provision 
when it is enacted.
    Chairman Herger. Thank you very much, Mr. Doggett, Mr. 
Cardin, Members of our Committee, and I want to thank you 
again, Mr. Williams, for joining us this morning. I trust that 
you would respond to additional questions on these issues for 
the record. It has been a very informative hearing, and I 
appreciate the time that you have given us today, and with 
that, this Committee stands adjourned.
    Mr. Williams. Thank you, Mr. Chairman.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
    [Submissions for the record follow:]
    Statement of the Hon. Suzanne Jeskewitz, State Representative, 
                        Wisconsin State Assembly
    I would like to urge you to maintain the full funding for maternity 
group homes that President Bush has allocated in the Health and Human 
Services fiscal year 2002 budget.
    As a State Representative in Wisconsin, I have been working on 
state legislation to allow private organizations to establish and 
operate maternity group homes, commonly referred to as Second Chance 
Homes, for pregnant and parenting teenage girls. While developing this 
legislation, I had the opportunity to visit a Second Chance Home. The 
life skills that these mothers learn while living in a Second Chance 
Home are invaluable. They learn money management skills, 
responsibility, how to be a contributing member of society and most 
importantly how to be a good mother. Many of these girls come from 
broken homes themselves and are in danger of repeating the cycle of 
irresponsible parenting. These homes show them that there are other 
options available and teach them how to choose the best path.
    The legislation that I am advocating in Wisconsin currently does 
not have a funding source. We are counting on the benevolence of 
society to help us fund these homes. The support that we have received 
already has been very encouraging, but living on the hope of generosity 
is a scary prospect. The funding that has been allocated by President 
Bush will be a start for the development and operation of Second Chance 
Homes all over the country. This will be money that these homes can 
depend on. The money will provide stability for the operators of these 
homes who in turn provide a safe, stable, secure environment for these 
young mothers and their new babies.
    Thank you for the opportunity to express my support for President 
Bush's proposal for $33 million in the Health and Human Services budget 
for maternity group homes.

                                <F-dash>


     Statement of Professor James Q. Wilson\1\, Malibu, California
---------------------------------------------------------------------------
    \1\ Wilson is an emeritus professor of management and public policy 
at UCLA and now lectures at Pepperdine University. He is the author of 
a book, THE MARRIAGE PROBLEM, that discusses out-of-wedlock births in 
greater detail. It will be published in January 2002 by HarperCollins.
---------------------------------------------------------------------------
    I strongly endorse President Bush's request for funds to support 
Maternity Group Homes. There are many humane reasons for wishing to 
help private organizations supply safe and decent shelter to unmarried 
teenage mothers. But I want to suggest a practical reason for doing so.
    Out-of-wedlock births are, in my judgment, the central social issue 
facing this country. Over many decades, our culture (like that of 
Australia, Canada, England, and other nations) has lost its capacity to 
enforce a marriage obligation on people who create children. Today, 
over one-fifth of all white children and over one-half of all black 
ones live in a mother-only family. America is unique in one respect: we 
lead the world in the proportion of births to unwed teen mothers. In 
1997, the proportion of births to unwed mothers under the age of twenty 
in large American cities was shown by the National Center for Health 
Statistics to be as follows:


------------------------------------------------------------------------

------------------------------------------------------------------------
St. Louis                                  97%
------------------------------------------------------------------------
Baltimore                                  96%
------------------------------------------------------------------------
District of Columbia                       96%
------------------------------------------------------------------------
Pittsburgh                                 96%
------------------------------------------------------------------------
New Orleans                                95%
------------------------------------------------------------------------
Philadelphia                               95%
------------------------------------------------------------------------
Newark                                     95%
------------------------------------------------------------------------
Detroit                                    95%
------------------------------------------------------------------------
Cincinnati                                 94%
------------------------------------------------------------------------
Cleveland                                  94%
------------------------------------------------------------------------

    I could add more cities to this list, but the story would be much 
the same. For the nation as a whole in 1997, 78 percent of all births 
to teen moms were out of wedlock.
    As a result, children growing up without fathers are now a major 
source of social instability. Research has revealed these facts about 
out-of-wedlock children:
    When the Department of Health and Human Services studied 30,000 
American households, it found that at every income level save the very 
highest single-parent children were more likely to drop out of school, 
have emotional problems, and behave badly.
    Among white children, those living with unwed mothers were much 
more likely to become delinquent, and this remained true even after the 
researcher held constant family income.
    Among all children, those with an unwed mother were twice as likely 
to spend time in jail as were those with two parents even after the 
researchers held constant family income.
    In predominately African American communities, the rate of violent 
crime is more closely correlated with family structure than with race.
    To avoid poverty in this country, you need do only three things: 
finish high school, marry before having a child, and produce the first 
child after the age of twenty. William Galston, formerly an adviser to 
President Clinton, has shown that only 8 percent of the families who do 
this are poor while 79 percent who fail to do this are poor.
    Welfare reform--the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996--has helped reduce the number of women 
obtaining welfare and increase the number who are working. But so far 
it has not had a large effect on out-of-wedlock births, especially 
among teenage girls. Despite its requirement that unmarried teen moms 
either live with their parents or, should that be undesirable, in an 
appropriate, adult-supervised residence, most states have done little 
to produce such residences.
    But some states, such as Massachusetts, have done a great deal to 
create these residences, using public money and part of the TANF 
payment to teen moms to create what is called the Teen Living Program. 
Some of them are run by secular organizations, some by church-related 
ones. There are comparable programs in Georgia, Nevada, New Mexico, 
Rhode Island, and Texas.
    The Federal government should insist that all states carry out the 
requirements of the 1996 law and offer them matching grants to make it 
financially easier to do so.
    The goal of this effort, in my view, should not simply be to 
improve the lives of teen moms by insuring that they finish high 
school, stay away from drugs and alcohol, and avoid predatory boy 
friends. Its larger purpose should be to insure that these girls do not 
have additional children without first getting married and that their 
babies grow up in an environment in which they are not only given 
loving care but taught that romance ought to be a prelude to marriage, 
not simply an opportunity for sex.
    This may be happening now with similar homes that are already in 
operation, but we do not know this with any certainty. Therefore, I 
suggest that Congress offer funds for such homes only on condition that 
these homes be evaluated by independent (that is, non-governmental) 
organizations. I would recommend that at least 10 percent of all 
federal funds appropriated for this purpose be earmarked for such 
evaluation efforts.
    Such evaluations will take a long time because we need to learn 
from them what happens to the children as they grow up. We should not 
be worried about this delay. This nation has taken half a century to 
reduce the obligations, and thus to minimize the benefits, of marriage. 
It may well take twenty years or more for us to learn how best to undo 
the mischief we have created.
    In taking these steps, I am mindful of the fact that some unmarried 
mothers (and some unmarried fathers) do a fine job of raising their 
children. But statistically they are a distinct minority. Today, 
violent gangs, drug-dependent adolescents, juvenile detention centers, 
and our state prisons are disproportionately made up of fatherless 
children.
    From time to time, some people try to minimize this problem by 
pointing out that the number of such births is declining. But that is 
true only because the number of all births is declining. The ratio of 
out-of-wedlock births to all births has scarcely declined at all.
    This is not a uniquely American problem. It can be found in most 
other English-speaking nations and in some European ones as well. Only 
slowly have some people living abroad come to appreciate the gravity of 
this problem. But America has one advantage: our leaders now view the 
problem seriously. This proposal is an opportunity to take a giant leap 
forward in bringing under control a profound source of social 
instability.

                                <all>

</pre></body></html>
